HHS/OIG, Audit -"Review of Trans-Telephonic Cardiac Monitoring Services Provided
By Raytel Cardiac Services, Inc. for Calendar Year 2002,"(A-03-04-00001)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Trans-Telephonic Cardiac Monitoring
Services Provided By Raytel Cardiac Services, Inc. for Calendar Year 2002," (A-03-04-00001)
January 4, 2006
Complete
Text of Report is available in PDF format (1.06 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether Medicare payments to Raytel Cardiac
Services, Inc. for trans-telephonic cardiac monitoring services were allowable and made in
accordance with applicable Federal regulations and guidelines.  We found that Raytel
received improper payments totaling $12,315 in calendar year 2002.  These improper payments
included (1) $11,666 in duplicate payments for services that were reimbursed under both a
local procedure code and a Common Procedural Terminology (CPT) code, and (2) $649 for services
that did not comply with Medicare requirements.  We did not question Medicare reimbursements
for the services performed by Raytel technicians who lacked certification or licenses from
a State or national accreditation body.  The States in which Raytel operated did not
require licenses for pacemaker technicians, and the carrier did not issue guidelines for
certification until after our audit period.
We recommended that Raytel:  (1) refund to the Medicare carrier $12,315 for duplicate
payments received for billing the same service using both a local procedure code and a CPT
code, and for services that did not comply with Federal regulations or Medicare guidelines,
(2) examine the errors identified in our review and develop additional controls and training
to ensure that these types of errors do not occur in the future, and (3) work with the carrier
to ensure that its pacemaker training program is in compliance with the carrier guidelines
for trans-telephonic monitoring personnel.  Raytel did not concur with our findings
as stated in the draft report.  Raytel refunded $11,788 of the $12,315 it received in
duplicate payments and payments for services improperly billed.